Record Press Inc., 229 West 36th Street, New York, N.Y. 10018
Tel: (212) 619-4949 Fax No. (212) 608-3141

STATE OF NEW YORK, ) 83238

Ss: AFFIDAVIT OF SERVICE
COUNTY OF NEW YORK )

Howard Daniels being duly sworn, deposes and says that deponent is not party to the action, and is
over 18 years of age.

That on the 15th day of July 2020 deponent served 3 copies of the within
BRIEF IN OPPOSITION

upon the attorneys at the addresses below, and by the following method:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Jeffrey Matthew Harris
Consovoy McCarthy PLLC
1600 Wilson Blvd, Suite 700
Arlington, VA 22209
202-321-4120
jeff@consovoymccarthy.com

|, Howard Daniels, declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct, executed on July 15, 2020, pursuant to Supreme Court
Rule 29.5{c). All parties required to be served, have been served.

Afar 4) bets

Howard Daniels

Sworn to me this

July 15, 2020
Alessandra Kane
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Case Name: Dignity Health v. Minton

Docket/Case No. 19-1135

Notary Public
CERTIFICATE OF COMPLIANCE
Case No. 19-1135

Caption: DIGNITY HEALTH d/b/a MERCY SAN
JUAN MEDICAL CENTER v. EVAN MINTON,

As required by Supreme Court Rule 33.1(h), I
certify that the document contains 3,541 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the fore-
going is true and correct.

Executed on July 15, 2020.

D Misser
Record Press, Inc.

Sworn to before me on

July 15, 2020

ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 2024

Notary Public
